No. ______
In the

Supreme Court of the United States
__________________
PSARA ENERGY LTD.,
Petitioner,
v.
ST SHIPPING & TRANSPORT PTE. LTD.; SPACE
SHIPPING, LTD.; AND GEDEN HOLDINGS, PTE. LTD.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
George A. Gaitas
Counsel of Record
GAITAS & CHALOS, P.C.
1908 N Memorial Way
Houston, Texas 77007
Tel:(281) 501-1800
Fax:(832) 962-8178
E-mail: gaitas@gkclaw.com
Counsel for Petitioner
Psara Energy, Limited

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the jurisdiction a court of appeals has over
a district court’s vacatur of a maritime garnishment
under Rule B(1) of the Supplemental Rules for
Admiralty or Maritime Claims and Asset Forfeiture
Actions is divested on the grounds of mootness by a
foreign court’s judgment on the garnishee’s competing
interpleader filed during the pendency of the appeal.

ii
PARTIES TO THE PROCEEDING
Pursuant to Rule 14.1(b), the following list identifies
all of the parties appearing here and before the United
States Court of Appeals for the Second Circuit:
The petitioner here, and appellant below, is Psara
Energy Limited.
The appellees below, and respondents here, are: ST
Shipping & Transport Pte. Ltd.; Space Shipping, Ltd.;
and Geden Holdings, Pte. Ltd.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6, petitioner states as follows:
Psara Energy, Ltd. is not a publicly held corporation
in the United States and there are no corporate
parents, subsidiaries, or affiliates of Psara Energy, Ltd.
that are otherwise publicly held in the United States.

iv
STATEMENT OF RELATED PROCEEDINGS
• Psara Energy Ltd. v. Space Shipping Ltd., 771 F.
App’x 45 (2d Cir. 2019) (opinion and summary order
issued June 4, 2019; order denying rehearing and
rehearing en banc issued July 18, 2019).
• PSARA Energy, Ltd. v. SPACE Shipping, Ltd., 290
F. Supp. 3d 158 (D. Conn. 2017) (ruling and order
on motion to vacate maritime attachment issued
Nov. 20, 2017).
There are no additional proceedings in any court
that are directly related to this case.

v
TABLE OF AUTHORITIES
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . iii
STATEMENT OF RELATED PROCEEDINGS . . . iv
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES INVOLVED . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 6
A. Factual Background. . . . . . . . . . . . . . . . . . 7
B. Proceedings Below . . . . . . . . . . . . . . . . . . . 9
REASONS FOR GRANTING THE PETITION . . . 11
I.

THE DECISION OF THE COURT OF
APPEALS IS CONTRARY TO LONG
STANDING PRECEDENT OF THIS COURT
AND APPELLATE COURT DECISIONS
THAT HAVE FOLLOWED IT . . . . . . . . . . . 11

II.

THE COURTS’ EXCLUSIVE ADMIRALTY
JURISDICTION SHOULD NOT BE
RELINQUISHED BASED ON A
RATIONALE OF “COMITY”. . . . . . . . . . . . . 16

III.

PRIOR EXCLUSIVE JURISDICTION
PRECLUDES DISMISSAL OF THE
APPEAL ON GROUNDS OF COMITY . . . . 19

vi
IV.

RULE B ISSUES WITHIN THE
EXCLUSIVE ADMIRALTY JURISDICTION
OF COURTS OF THE UNITED STATES
MAY BE DECIDED ONLY BY COURTS OF
THE UNITED STATES . . . . . . . . . . . . . . . . 22

V.

A SUBSEQUENT
INTERPLEADER
CANNOT
DEFEAT
A
PRIOR
ATTACHMENT . . . . . . . . . . . . . . . . . . . . . . . 26

VI.

THE USELESS JUDGMENT EXCEPTION
DOES NOT OPERATE TO RENDER A
JUDGMENT ON APPEAL MOOT, WHERE
THE JUDGMENT IS RENDERED
USELESS BY THE GARNISHEE’S OR THE
DEBTOR’S ACTION . . . . . . . . . . . . . . . . . . . 30

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
APPENDIX
Appendix A Summary Order in the United States
Court of Appeals for the Second
Circuit
(June 4, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Ruling and Order on Motion to Vacate
Maritime Attachment in the United
States District Court, District of
Connecticut
(November 20, 2017) . . . . . . . . . . . App. 6
Appendix C Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Second Circuit
(July 18, 2019) . . . . . . . . . . . . . . App. 21

vii
TABLE OF AUTHORITIES
Cases:
Al-Abood v. Elshamari,
217 F.3d 225 (4th Cir. 2000). . . . . . . . . . . . . . . . 20
Alyeska Pipeline Serv. Co. v. The Vessel Bay Ridge,
703 F.2d 381 (9th Cir. 1983). . . . . . . . . . . . . . . . 14
Aqua Stoli Shipping Ltd. v. Gardner Smith Pty
Ltd.,
460 F.3d 434 (2d Cir. 2006) . . . . . . . . . . . . . . . . 22
Cmty. Bank of Lafourche v. Lori Ann Vizier, Inc.,
541 Fed. Appx. 506 (5th Cir. 2013) . . . . . . . . . . 31
Dependable Highway Express, Inc. v. Navigators
Ins. Co.,
498 F.3d 1059 (9th Cir. 2007). . . . . . . . . . . . . . . 19
DS-Rendite Fonds Nr. 108 VLCC Ashna GmbH &
Co Tankschiff KG v. Essar Capital Ams. Inc.,
882 F.3d 44 (2d Cir. 2018) . . . . . . . . . . . . . . . . . 20
Eurasia Intl. Ltd. v. Holman Shipping Inc.,
411 F.3d 578 (5th Cir. 2005). . . . . . . . . . . . . . . . 31
Farmers’ Loan & Trust Co. v. Lake Street,
177 U.S. 51 (1900). . . . . . . . . . . . . . . . . . . . . . . . 26
Foremost Ins. Co. v. Richardson,
457 U.S. 668 (1982) . . . . . . . . . . . . . . . . . . . . . . 22
French v. Liebmann (In re French),
320 B.R. 78 (D. Md. 2004); aff’d, 440 F.3d 145
(4th Cir. 2006); cert. den., 2006 U.S. LEXIS 5759
(U.S., Oct. 2, 2006) . . . . . . . . . . . . . . . . . . . . . . . 19

viii
Gulf Ref. Co. v. United States,
269 U.S. 125 (1925). . . . . . . . . . . . . . . . . . . . 25, 26
Hartford Fire Ins. Co. v. California,
509 U.S. 764 (1993). . . . . . . . . . . . . . . . . 17, 18, 19
J. Lauritzen A/S v. Dashwood Shipping,
65 F.3d 139 (9th Cir. 1995). . . . . . . . . . . . . . . . . 20
Kline v. Burke Constr. Co.,
260 U.S. 231 (1922) . . . . . . . . . . . . . . . . . . . 26, 27
Miller v. United States,
78 U.S. 268 (1870). . . . . . . . . . . . . . . . . . . . . . . . 29
National Fire Insurance Co. v. Chambers,
53 N.J. Eq. 468, 32 A. 663 (1895) . . . . . . . . . . . . 28
Palmer v. Texas,
212 U.S.129 (1909) . . . . . . . . . . . . . . . . . . . . 26, 27
Penn Gen. Cas. Co. v. Pennsylvania,
294 U.S. 189 (1935). . . . . . . . . . . . . . . . . . . . 19, 20
Republic Nat’l Bank of Miami v. United States,
506 U.S. 80 (1992). . . . . . . . . . . . . . . . . . . . passim
Rodulfa v. United States,
461 F.2d 1240 (DC App. 1972) . . . . . . . . . . . . . . 26
Sanders v. Armour Fertilizer Works,
292 U.S. 190 (1934). . . . . . . . . . . . . . . . . . . . 27, 28
Scanscot Shipping Servs. GmbH v. Metales
Tracomex Ltda.,
617 F.3d 679 (2d Cir. 2010) . . . . . . . . . . . . . . . . 24

ix
Schiffahartsgesellschaft Leonhardt & Co. v. A.
Bottacchi S.A. de Navegacion,
773 F.2d 1528 (11th Cir. 1985). . . . . . . . . . . . . . 22
Shipping Corp. of India v. Jaldhi Overseas PTE
Ltd.,
585 F.3d 58 (2d Cir. 2009) . . . . . . . . . . . . . . . . . 24
Stevedoring Servs. of Am. v. Ancora Transp., N.V.,
506 U.S. 1043 (1993). . . . . . . . . . . . . . . . . . . . . . 14
Stevedoring Servs. of Am. v. Ancora Transp., N.V.,
59 F.3d 879 (9th Cir. 1995). . . . . . . . . . . . . . 15, 16
Stevedoring Servs. of Am. v. Ancora Transp., N.V.,
941 F.2d 1378 (9th Cir. 1991) . . . . . . . . . . . 13, 14
ST Shipping v. Space Shipping
[2018] EWHC (Comm) 156 [37] (Eng.). . . . . . . . 17
Swift & Co. Packers v. Compania Colombiana Del
Caribe, S.A.,
339 U.S. 684 (1950). . . . . . . . . . . . . . . . . . . . . . . 23
Tyler v. Defrees,
78 U.S. 331, 11 Wall. 331, 349, 20 L. Ed. 161
(1871). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
The “Bolina”,
3 F. Cas. 811, 813-814 (No. 1,608) (CC
Mass. 1812) . . . . . . . . . . . . . . . . . . . . . . . . . . 28, 29
The “Little Charles”,
26 F. Cas. 979, U.S. App. LEXIS 241
(No. 15,612) (CC Va. 1818) . . . . . . . . . . . . . . 31, 32
The Rio Grande,
90 U.S. 458 (1875). . . . . . . . . . . . . . . . . . . . . 12, 13

x
United States v. 493,850.00 in U.S. Currency,
518 F.3d 159 (9th Cir. 2008). . . . . . . . . . . . . . . . 31
United States v. Bank of N.Y. & Tr. Co.,
296 U.S. 463 (1936). . . . . . . . . . . . . . . . . . . . . . . 21
Ventura Packers, Inc. v. F/V Jeanine Kathleen,
424 F.3d 852 (9th Cir. 2005). . . . . . . . . . . . . . . . 16
Vitol, S.A. v. Primerose Shipping Co.,
708 F.3d 527 (4th Cir . 2013) . . . . . . . . . . . . 16, 22
World Wide Supply Ou v. Quail Cruises Ship
Mgmt.,
802 F.3d 1255 (11th Cir. 2015). . . . . . . . 16, 32, 33
Zellen v. Second New Haven Bank,
454 F. Supp. 1359 (D. Conn. 1978) . . . . . . . . . . 21
Constitution:
U.S. Const. Art. III. . . . . . . . . . . . . . . . . . . . . . . . . . 22
Rules and Statutes:
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. §1333 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
28 U.S.C. §1333(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Connecticut Long Arm Statute
(Conn. Gen. Stat. §33-929(f)) . . . . . . . . . . . . . . . . 9
Supplemental Rule B . . . . . . . . . . . . . . . . . . . . . . 2, 24
Supplemental Rule E(4)(c). . . . . . . . . . . . . . . . . . . . . 5
Supplemental Rule E(4)(f) . . . . . . . . . . . . . . . . . . . 5, 9

xi
Other Authorities:
2 Schoenbaum, § 21-2 . . . . . . . . . . . . . . . . . . . . . . . 15
Restatement 3d of the Foreign Relations Law of the
U.S., § 403 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

1
OPINIONS BELOW
The Summary Order of the Court of Appeals
dismissing the appeal is reported at Psara Energy Ltd.
v. Space Shipping Ltd., 771 F. App’x 45 (2d Cir. 2019)
and is reprinted in the Appendix to the Petition
(“App.”) at 1-5.
The Court of Appeals’ order denying rehearing and
rehearing en banc is unpublished but is reprinted at
App. 21- App. 22.
The District Court’s vacatur of the attachment order
was entered on November 20, 2017 (“Vacatur Order”),
and is reported at PSARA Energy, Ltd. v. SPACE
Shipping, Ltd., 290 F. Supp. 3d 158 (D. Conn. 2017).
The Vacatur Order is reprinted at App. 6 – App. 20.
JURISDICTION
The Court of Appeals entered its judgment on
June 4, 2019. A timely filed petition for rehearing and
rehearing en banc was denied on July 18, 2019 (App.
21- App. 22). This Court has jurisdiction under 28
U.S.C. §1254(1).

2
STATUTES INVOLVED
SUPPLEMENTAL RULES FOR ADMIRALTY OR
MARITIME CLAIMS AND ASSET FORFEITURE
ACTIONS
Rule B. In Personam Actions: Attachment
and Garnishment
(1) When Available; Complaint, Affidavit,
Judicial Authorization, and Process. In an in
personam action:
(a) If a defendant is not found within the district
when a verified complaint praying for
attachment and the affidavit required by Rule
B(1)(b) are filed, a verified complaint may
contain a prayer for process to attach the
defendant's tangible or intangible personal
property—up to the amount sued for—in the
hands of garnishees named in the process.
(b) The plaintiff or the plaintiff's attorney must
sign and file with the complaint an affidavit
stating that, to the affiant's knowledge, or on
information and belief, the defendant cannot be
found within the district. The court must review
the complaint and affidavit and, if the conditions
of this Rule B appear to exist, enter an order so
stating and authorizing process of attachment
and garnishment. The clerk may issue
supplemental process enforcing the court's order
upon application without further court order.
(c) If the plaintiff or the plaintiff's attorney
certifies that exigent circumstances make court

3
review impracticable, the clerk must issue the
summons and process of attachment and
garnishment. The plaintiff has the burden in
any post-attachment hearing under Rule E(4)(f)
to show that exigent circumstances existed.
(d)(i) If the property is a vessel or tangible
property on board a vessel, the summons,
process, and any supplemental process must be
delivered to the marshal for service.
(ii) If the property is other tangible or intangible
property, the summons, process, and any
supplemental process must be delivered to a
person or organization authorized to serve it,
who may be (A) a marshal; (B) someone under
contract with the United States; (C) someone
specially appointed by the court for that
purpose; or, (D) in an action brought by the
United States, any officer or employee of the
United States.
(e) The plaintiff may invoke state-law remedies
under Rule 64 for seizure of person or property
for the purpose of securing satisfaction of the
judgment.
(2) Notice to Defendant. No default judgment
may be entered except upon proof—which may
be by affidavit—that:
(a) the complaint, summons, and process of
attachment or garnishment have been served on
the defendant in a manner authorized by Rule 4;

4
(b) the plaintiff or the garnishee has mailed to
the defendant the complaint, summons, and
process of attachment or garnishment, using any
form of mail requiring a return receipt; or
(c) the plaintiff or the garnishee has tried
diligently to give notice of the action to the
defendant but could not do so.
(3) Answer.
(a) By Garnishee. The garnishee shall serve an
answer, together with answers to any
interrogatories served with the complaint,
within 21 days after service of process upon the
garnishee. Interrogatories to the garnishee may
be served with the complaint without leave of
court. If the garnishee refuses or neglects to
answer on oath as to the debts, credits, or effects
of the defendant in the garnishee's hands, or any
interrogatories concerning such debts, credits,
and effects that may be propounded by the
plaintiff, the court may award compulsory
process against the garnishee. If the garnishee
admits any debts, credits, or effects, they shall
be held in the garnishee's hands or paid into the
registry of the court, and shall be held in either
case subject to the further order of the court.
(b) By Defendant. The defendant shall serve an
answer within 30 days after process has been
executed, whether by attachment of property or
service on the garnishee.

5
Rule E. Actions in Rem and Quasi in Rem:
General Provisions
(c) Intangible Property. If intangible property is
to be attached or arrested the marshal or other
person or organization having the warrant shall
execute the process by leaving with the
garnishee or other obligor a copy of the
complaint and process requiring the garnishee
or other obligor to answer as provided in Rules
B(3)(a) and C(6); or the marshal may accept for
payment into the registry of the court the
amount owed to the extent of the amount
claimed by the plaintiff with interest and costs,
in which event the garnishee or other obligor
shall not be required to answer unless alias
process shall be served.
(f) Procedure for Release From Arrest or
Attachment. Whenever property is arrested or
attached, any person claiming an interest in it
shall be entitled to a prompt hearing at which
the plaintiff shall be required to show why the
arrest or attachment should not be vacated or
other relief granted consistent with these rules.
This subdivision shall have no application to
suits for seamen's wages when process is issued
upon a certification of sufficient cause filed
pursuant to Title 46, U.S.C. §§603 and 604 1 or
to actions by the United States for forfeitures for
violation of any statute of the United States.

6
28 U.S. Code §1333. Admiralty, maritime and
prize cases
The district courts shall have original
jurisdiction, exclusive of the courts of the States,
of:
(1) Any civil case of admiralty or maritime
jurisdiction, saving to suitors in all cases all
other remedies to which they are otherwise
entitled.
(2) Any prize brought into the United States and
all proceedings for the condemnation of property
taken as prize.
STATEMENT OF THE CASE
The question presented by this case affects
fundamental principles of American maritime law as it
has existed and has been practiced since the adoption
of the Constitution. At stake is the continuing exclusive
jurisdiction of admiralty courts of the United States
over maritime attachment and garnishment cases
during appeal when challenged by defendants’ or
garnishees’ resort to foreign courts or tribunals
seeking, through such competing proceedings, to render
attachment and garnishment cases moot.
In this case, exclusive admiralty jurisdiction was
diminished by the Court of Appeals for the Second
Circuit (also “Court of Appeals” or “Second Circuit”)
ruling - contrary to the precedents of this Court and
several courts of appeal - that exclusive jurisdiction is
not preserved intact until the appeal is concluded, and

7
the case may be rendered moot by a foreign court’s
summary adjudication in interpleader-like proceedings.
“Comity” was the foundation of the Court of Appeals
decision whereby it self-divested its exclusive admiralty
jurisdiction by accepting the foreign court’s
interpleader judgment and pronouncing the case on
appeal moot. The risk posed by the decision of the
Court of Appeals to the unique remedies available in
admiralty in rem and quasi in rem proceedings is that
it lays the foundation for a novel work-around to
longstanding rules affecting jurisdiction through the
pursuit of competing foreign forum adjudications. The
end result of extending comity to competing foreign
court judgments should not be the divestiture of firstacquired exclusive admiralty jurisdiction, and the
abdication of a constitutionally defined role.
For the reasons set out in this application, the
Court should grant certiorari to hear arguments why
the exclusive jurisdiction of admiralty courts in the
areas defined by the Constitution, Acts of Congress,
and the maritime law of the United states must be
preserved and not diminished by competing foreign
country court proceedings.
A. Factual Background
Petitioner, as owner of the motor tanker CV
STEALTH (the “Vessel”), bareboat chartered her to
Respondent Space Shipping, Ltd (“Space”), a Maltese
Company owned by Respondent Geden Holdings, Pte.
Ltd (“Geden”), another Maltese company, that
guaranteed the performance of Space under the
bareboat charter. Space time-chartered the ship to

8
Respondent ST Shipping and Transport, Pte. Ltd.
(“ST”) a Singapore company carrying on business out of
Stamford, Connecticut. ST voyage-chartered the vessel
to AS Capital. Ltd., a Miami, Florida-based Delaware
corporation that employed it to lift a cargo of crude oil
from Puerto La Cruz, Venezuela to an oil terminal in
the United States. See, Appendix on Appeal, pp. A -11
– A12.1
All charter parties in this chain provided for
resolution of disputes in London arbitration. On or
about September 13, 2014, the CV STEALTH, while
performing the voyage charter, was arrested by
Venezuelan law enforcement authorities on suspicion
of attempting to load stolen state-owned crude oil. The
Vessel was detained by the Venezuelan authorities for
several years, through October of 2017. She was not
released and redelivered to petitioner by her bareboat
charterer until March of 2018. A-12 – A-14.
Throughout her detention, and in breach of the
bareboat charter, the Vessel was not in proper layup
nor even minimally maintained by Respondent Space.
As a result, she severely deteriorated and sustained
damage to her hull and machinery. The repair cost is
estimated to be approximately $19,000,000. Petitioner
pursued its claims in London arbitration. On or about
October 30, 2017, after learning that Respondent ST
was indebted to Respondent Space in respect of a

1

All references to the record are references to Petitioner’s
Appendix for Plaintiff -Appellant that were before the Circuit
Court. They are referenced as “A- (followed by the page number(s)
of the said Appendix).”

9
substantial final arbitration award, Petitioner applied
to the United States District Court for the District of
Connecticut under Supplemental Rule B(1)2 for the
attachment of the award in ST’s hands in aid of its
claims against ST in London arbitration. A-14- A-16.
B. Proceedings Below
The District Court granted the order of maritime
attachment and garnishment which was promptly
challenged by the garnishee – and DefendantsRespondents Space and Geden. The District Court, on
Respondents’ applications, vacated the attachment
following a hearing under Supplemental Rule E(4)(f).
See, Appendix to Petition, pp. App. 6 – App. 20.3 The
District Court’s principal reasoning for vacating the
attachment was that Space, being a foreign nonresident corporation, could not qualify as a plaintiff
under the Connecticut Long Arm Statute (Conn. Gen.
Stat. §33-929(f)) and, therefore, Petitioner was
precluded under state law from attaching the
arbitration award in the hands of ST. App. 17- App. 20.
Respondent promptly filed its notice of appeal. It
challenged the vacatur of the attachment, as it was
predicated on door-closing provisions of the state’s longarm statute. In response, ST filed a stakeholder
proceeding in the High Court in London (an English
law variant of interpleader) in which it requested the
English court to decide whether Petitioner or
2

“Supplemental Rules” refers to the Supplemental Rules for
Admiralty or Maritime Claims and Asset Forfeiture Actions.
3

All references to the Appendix to this Petition are marked “App.”
followed by the respective Appendix page number.

10
Defendants were entitled to immediate payment of the
arbitration award. The High Court ruled quickly,
while the appeal was pending, and decided that Space,
in whose favor the arbitration had been made against
ST, was entitled to the payment in preference to
Petitioner. App. 3-App. 4.
It did not consider
Petitioner’s request to stay its hand pending
consideration of the appeal by the Second Circuit which
was first vested with jurisdiction over the dispute. Nor
did it address Petitioner’s arguments based on Republic
National Bank of Miami v. United States, 506 U.S. 80
(1992) that during the appeal, and until its conclusion,
the courts of the United States that first exercised
jurisdiction continued to be vested with jurisdiction
over the res, the parties, and the dispute. ST, in its
appellate brief filed subsequently, argued Petitioner’s
case had been rendered moot by the High Court
judgment.
Following oral argument on the appeal, the Court of
Appeals issued a summary order (hereinafter
“Summary Order”) which upheld the Respondents’
argument that the appeal had become moot as the
attached res was no longer in the possession of the
garnishee and, accordingly, the attachment could not
be reinstated. App. 4. Petitioner applied to the Court
of Appeals for rehearing by the Panel or rehearing en
banc. Rehearing was denied. App. 21-App. 22.

11
REASONS FOR GRANTING THE PETITION
I.

THE DECISION OF THE COURT OF
APPEALS IS CONTRARY TO LONG
STANDING PRECEDENT OF THIS COURT
AND APPELLATE COURT DECISIONS
THAT HAVE FOLLOWED IT

Even though the Summary Order of the Second
Circuit Court of Appeals designates it as having nonprecedential effect (App. 1), the Summary Order is
substantially not in accordance with existing precedent
of the Court that has been followed by several decisions
of courts of appeal. The Summary Order has been
reported and, together with the District Court decision
which Petitioner contends was erroneously decided,
now creates uncertainty about what had been settled
law.
Petitioner respectfully asks the Court to hear
arguments why it should uphold the continuing
jurisdiction of the Second Circuit and the District Court
over the case on appeal against an impermissible
attempt of Respondents to engineer the ouster of
jurisdiction through a foreign interpleader judgment.
The continuing jurisdiction of the Court of Appeals over
a pending quasi in rem case in admiralty is not
susceptible to divestiture by such means.
In Republic Nat’l Bank of Miami v. United States,
506 U.S. 80, 91-92 (1992) the government had argued
that, following a forfeiture sale of a house and transfer
of the sale proceeds to the Treasury, the Eleventh
Circuit Court of Appeals, where the bank had resorted
to contest denial of its innocent mortgagee claim, had

12
correctly ruled it had lost jurisdiction by reason of that
transfer.4 Addressing this argument in his opinion for
the Court, Mr. Justice Blackmun noted:
The Court in Tyler v. Defrees, 78 U.S. 331, 11
Wall. 331, 349, 20 L. Ed. 161 (1871), explained
that once a valid seizure of forfeitable property
has occurred and the court has notice of the fact,
no change of the title or possession [can] be
made, pending the judicial proceedings, which
would defeat the final decree.
Republic Nat’l Bank of Miami v. United States, 506
U.S. 80, 91-92 (1992) (emphases added).
In this case, the Second Circuit stated, regarding
the attached arbitration award, “…it no longer exists
as a discrete res in ST Shipping’s possession” and,
accordingly, the “...Court cannot order the attachment
of a res that no longer exists within the ownership of
the garnishee, ST Shipping.” App.4. This position is
antithetical to the holding of the Court in Republic
National Bank. Changes in the title or possession of
the res, once there has been a valid seizure of the
property, cannot divest the court’s jurisdiction during
the pendency of the appeal. It should be immaterial
how this change in the title or possession occurs. In
the case of Republic National Bank, the change in title
or possession was the transfer of the proceeds of the
sale to the Treasury. There, the government argued,
relying on dicta from the Rio Grande, 90 U.S. 458
(1875), that the continuing jurisdiction rule applied

4

Applying Supplemental Rule C, governing forfeiture actions.

13
only as an “injustice” exception, i.e. where the loss of
jurisdiction was caused by “an accidental or fraudulent
or improper removal” of the res. Id. at 465. The Court
in Republic National Bank rejected this argument
holding:
[T]he question is one of jurisdiction, and we do
not see why the means of the res' removal
should make a difference.
Id. at 85-86.
In the case at hand, the change in title or possession
was the transfer of funds by respondent-garnishee ST
in the possession of its solicitors and the filing of
stakeholder proceeding in the High Court in London.
Following consistently the ruling of the Court in
Republic National Bank, change in title or possession
could not defeat the final decree of the Court of
Appeals. But this is precisely what the Second Circuit
held in this case contrary to Republic National Bank.
It is at the core of its reasoning in the Summary Order.
Respondents argued below, and the Court of Appeals
accepted, that the interjection of a judgment in
interpleader-like proceedings from a foreign court,
pursued and obtained after the notice of appeal, affects
the title and/or possession of the attached res in such a
way that the case before the Court of Appeals becomes
moot.
A ruling similar to that of the Second Circuit in this
case was made in Stevedoring Servs. of Am. v. Ancora
Transp., 941 F.2d 1378, 1382 (9th Cir. 1991). The
operative facts of Stevedoring Servs. of Am. are closely
similar to those of this case. Stevedoring Servs. of Am.

14
involved a Rule B garnishment of funds by a
stevedoring services provider in the hands of a port
shipping agent. The district court vacated the
attachment and ordered the release of the attached
funds. The plaintiff in Stevedoring Servs. of Am. failed
to obtain a stay pending its appeal. The Ninth Circuit
Court of Appeals dismissed the appeal on the rationale
that “…in quasi in rem jurisdiction, we cannot reattach
the res once it is properly released.” Stevedoring Servs.
of Am., 941 F.2d 1381 (9th Cir. 1991). In this case, the
Second Circuit stated in its Summary Order: “This
Court cannot order the attachment of a res that no
longer exists within the ownership of the garnishee, ST
Shipping.” App. 4. “Mootness” as the ground for
dismissal of the appeal figured in both the Second
Circuit (App.4 – App.5) and Ninth Circuit decisions
(Stevedoring Servs. of Am., 941 F.2d at 1384) (citing
Alyeska Pipeline Serv. Co. v. The Vessel Bay Ridge, 703
F.2d 381, 384 (9th Cir. 1983)).
The appellant in Stevedoring Servs. of Am.
petitioned the Court for certiorari. In Stevedoring
Servs. of Am. v. Ancora Transp., 506 U.S. 1043 (1993),
certiorari was granted and the judgment was vacated
“…and remanded to the United States Court of Appeals
for the Ninth Circuit for further consideration in light
of Republic National Bank of Miami v. United States,
506 U.S. 80 (1992).” On remand, the Ninth Circuit
held:
We conclude that the district court’s release of
the garnished funds in Stevedoring Servs. of
Am.’s action for quasi in rem judgment did not
divest the court of jurisdiction over the res.

15
Accord 2 Schoenbaum, § 21-2, at 470 & n.11
(citing Republic Nat’l Bank).
Stevedoring Servs. of Am. v. Ancora Transp., N.V., 59
F.3d 879, 883 (9th Cir. 1995).
The only difference between the case at hand and
Stevedoring Servs. of Am. is that here an English
interpleader proceeding and judgment were interjected
while the appeal was pending, i.e. the means whereby
the removal of the res was accomplished were different
from those in Stevedoring Servs. of Am. The Second
Circuit’s rationale in justifying its inability to continue
exercising jurisdiction is analogous to that argued by
the government in Republic National Bank viz.
“Because the thing Psara seeks to attach – the Debt –
has been distributed from ST Shipping to Space and to
Psara pursuant to the English High Court’s order, it no
longer exists as a discrete res in ST Shipping’s
possession.” App. 3 - App. 4. To put it another way,
Petitioner understands the Second Circuit’s reasoning
is that the attached debt, having been distributed to
the Defendant during the pendency of the appeal, with
the blessing of the High Court, the removal of the res
leading to loss of jurisdiction by the Court of Appeals
would be proper, whereas the removal of the res from
the jurisdiction pursuant to the vacatur order of the
District Court alone would not have been.
Respectfully, the Court in Republic National Bank has
remarked that it does not see why the means of the res’
removal should make a difference. Supra at p. 13.
Accordingly, obtaining the interpleader imprimatur of
the court of a foreign country should not make any

16
difference and should not be grounds for pronouncing
the case pending before the Court of Appeals moot.
The Second Circuit would accept as proper this
strong-arm method of extraction of the res from the
jurisdiction on the grounds of comity and as an
exception to the continuing jurisdiction rule of Republic
National Bank, and the circuit courts of appeal that
have followed it. See e.g., World Wide Supply Ou v.
Quail Cruises Ship Mgmt., 802 F.3d 1255, 1261 (11th
Cir. 2015); Stevedoring Servs. of Am. v. Ancora Transp.,
N.V., 59 F.3d 879, 883 (9th Cir. 1995); Ventura
Packers, Inc. v. F/V Jeanine Kathleen, 424 F.3d 852,
860-861 (9th Cir. 2005); Vitol, S.A. v. Primerose
Shipping Co., 708 F.3d 527, 540 (4th Cir. 2013).
Petitioner would argue that reasons of comity cannot
justify letting such a result stand.
II.

THE COURTS’ EXCLUSIVE ADMIRALTY
JURISDICTION SHOULD NOT BE
RELINQUISHED BASED ON A
RATIONALE OF “COMITY”

The Court of Appeals rejected Petitioner’s argument
that the English High Court’s judgment in the matter
should not be accorded deference on grounds of comity.
It cited the English High Court’s reasons as its own
reasons as follows:
…there was no attachment order at the time the
English High Court issued its decision. That
Court, as it determined, therefore was not acting
in conflict either with an existing order of the
Connecticut court or with the wishes of the US

17
Court of Appeals. (ST Shipping v. Space
Shipping [2018] EWHC (Comm) 156 [37] (Eng.).
App. 5.
Petitioner would argue that the Court of Appeal’s
Summary Order is based on a narrow understanding of
“comity.”
In Hartford Fire Ins. Co. v. California, 509 U.S. 764,
818-819 (1993) in his dissenting opinion Justice Scalia
noted referring to Restatement 3d of the Foreign
Relations Law of the U.S., § 403:
Under the Restatement, a nation having some
‘basis’ for jurisdiction to prescribe law should
nonetheless refrain from exercising that
jurisdiction ‘with respect to a person or activity
having connections with another state when the
exercise of such jurisdiction is unreasonable.’
The ‘reasonableness’ inquiry turns on a number
of factors including, but not limited to: the
extent to which the activity takes place within
the territory [of the regulating state]; the
connections, such as nationality, residence, or
economic activity, between the regulating state
and the person principally responsible for the
activity to be regulated; the character of the
activity to be regulated; the importance of
regulation to the regulating state; the extent to
which other states regulate such activities, and
the degree to which the desirability of such
regulation is generally accepted; the extent to
which another state may have an interest in
regulating the activity; and the likelihood of

18
conflict with regulation by another state.
(internal citations omitted).
Hartford Fire Ins. Co. v. California, 509 U.S. 764, 818819 (1993).
Applying the foregoing principles to the case at
hand, the activity at issue is the attachment of the
arbitration award in Connecticut; in the hands of ST as
a garnishee and corporate resident of the state; in a
proceeding governed by the maritime laws of the
United States, i.e.
maritime garnishment; in
connection with obtaining security by attachment and
garnishment - which are unavailable in the United
Kingdom; and, accordingly, the exercise of jurisdiction
by the U.K. courts is likely to generate conflict.
The English High Court was well aware of the
pendency of the appeal and the continuing jurisdiction
of the Second Circuit, and that of the District Court,
while the appeal was pending. It was well aware of the
fact the U.S. courts continued to be seized with
jurisdiction. It was well aware of these jurisdictional
facts because they were expressly brought to its
attention in the pleadings and in the course of oral
argument in the U.K. It does not matter there was no
outstanding attachment order of the District Court, nor
that the High Court did not perceive that it was acting,
somehow, not in accordance with the wishes of the US
Court of Appeals. App. 5.
Notwithstanding its reasoning that expressly
discussed comity, the English High Court simply did
not accord comity to a pending case in which another
court was already vested with continuing jurisdiction.

19
To put it simply, in the circumstances of this case, the
exercise of jurisdiction by the High Court was
unreasonable. Hartford Fire Ins. Co. v. California, 509
U.S. 764,818; French v. Liebmann (In re French), 320
B.R. 78; 85-96 (D. Md. 2004); aff’d, 440 F.3d 145 (4th
Cir. 2006); cert. den., 2006 U.S. LEXIS 5759 (U.S.,
Oct. 2, 2006).
By contrast, the continuing exercise of jurisdiction
by the Court of Appeals would have been reasonable
under the Restatement test. Moreover, “Comity is not
required where the British action was filed after the
U.S. action for the sole purpose of interfering with the
U.S. suit.” See, Dependable Highway Express, Inc. v.
Navigators Ins. Co., 498 F.3d 1059, 1068-69 (9th Cir.
2007).
III.

PRIOR EXCLUSIVE JURISDICTION
PRECLUDES DISMISSAL OF THE APPEAL
ON GROUNDS OF COMITY

The reasoning of the Court of Appeals that comity
justifies the dismissal of Petitioner’s appeal does not
take into account that its jurisdiction over the attached
res was quasi in rem which precluded any other courts’
exercise of jurisdiction over the same res. This doctrine
of prior exclusive jurisdiction has been recognized as a
major exception to the application of the doctrine of
comity where a court has first exercised exclusive in
rem or quasi in rem jurisdiction.
In Penn Gen. Cas. Co. v. Pennsylvania, 294 U.S. 189
(1935) the Court held:
But if the two suits are in rem or quasi in rem,
requiring that the court or its officer have

20
possession or control of the property which is the
subject of the suit in order to proceed with the
cause and to grant the relief sought, the
jurisdiction of one court must of necessity yield
to that of the other. To avoid unseemly and
disastrous conflicts in the administration of our
dual judicial system, (citations omitted) and to
protect the judicial processes of the court first
assuming jurisdiction, (citations omitted) the
principle, applicable to both federal and state
courts, is established that the court first
assuming jurisdiction over the property may
maintain and exercise that jurisdiction to the
exclusion of the other.
Penn Gen. Cas. Co. v. Pennsylvania, 294 U.S. 189
(1935).
Though the context in which this principle is most
often encountered is in the dual sovereign court system
of the United States, it should and does apply in
conflict of jurisdiction cases with courts of foreign
countries. See e.g., Al-Abood v. Elshamari, 217 F.3d
225 (4th Cir. 2000).
Rule B attachment jurisdiction is quasi in rem
because jurisdiction is derived solely from the
attachment of the property of the defendant. J.
Lauritzen A/S v. Dashwood Shipping, 65 F.3d 139, 141
(9th Cir. 1995); DS-Rendite Fonds Nr. 108 VLCC
Ashna GmbH & Co Tankschiff KG v. Essar Capital
Ams. Inc., 882 F.3d 44, 47 (2d Cir. 2018).

21
There is no question that the cause in the District
Court and the Court of Appeals was a quasi in rem
proceeding where the attached res was the yet unpaid
arbitration award in the hands of ST. Was the
stakeholder proceeding in the High Court a quasi in
rem proceeding? It is Petitioner’s contention that it
was in the nature and character of a quasi in rem
proceeding. In the High Court stakeholder suit, the
object was the payment of the same award that had
been attached to either petitioner of Space. In order for
the High Court to exercise jurisdiction in the
stakeholder proceeding, it was necessary for ST to
establish a res within the territorial jurisdiction of the
UK court, and this was done with the payment of the
obligation, i.e. the amount owed under the award, into
an escrow account of ST’s solicitors in London. In legal
terms, the stakeholder suit was in the nature of a quasi
in rem action. It was not merely to establish a debt or
a right to share in property, and thus to obtain an
adjudication which might be had without disturbing
the control of the Court of Appeals. Its objective was
to remove the property from the control of the Court of
Appeals, and to vest the property in accordance with
the judgment of the High Court. See, United States v.
Bank of N.Y. & Tr. Co., 296 U.S. 463 (1936). The
stakeholder proceedings in the UK were arguably
interpleader proceedings in rem, aimed at adjudicating
the rights of all parties concerned to the property
attached. See e.g., Zellen v. Second New Haven Bank,
454 F. Supp. 1359, 1363 (D. Conn. 1978). Under the
principle of prior exclusive jurisdiction, the English
High Court should have refrained from issuing a
judgment until the pending appeal was decided.

22
IV.

RULE B ISSUES WITHIN THE EXCLUSIVE
ADMIRALTY JURISDICTION OF COURTS
OF THE UNITED STATES MAY BE
DECIDED ONLY BY COURTS OF THE
UNITED STATES

There is yet an additional good reason why the
Court of Appeals should not have accepted that the
English stakeholder-interpleader judgment rendered
the pending appeal moot. Its reasoning, may have
opened a heretofore unknown and uncharted route that
defeats the exclusive jurisdiction of the federal courts
in matters of maritime attachment - resort to the
courts of foreign countries.
Federal district courts have exclusive jurisdiction
over any civil case of admiralty or maritime
jurisdiction. U.S. Const. Art III; 28 U.S.C. 1333(1);
Foremost Ins. Co. v. Richardson, 457 U.S. 668, 670
(1982). Federal courts have an inherent power to grant
maritime attachments.
Schiffahartsgesellschaft
Leonhardt & Co. v. A. Bottacchi S.A. de Navegacion,
773 F.2d 1528, 1530-1531 (11th Cir. 1985); Aqua Stoli
Shipping Ltd. v. Gardner Smith Pty Ltd., 460 F.3d 434,
437-438 (2d Cir. 2006); Vitol, S.A. v. Primerose
Shipping Co., 708 F.3d 527, 537 at fn. 5 (4th Cir. 2013).
The procedures described under the Supplemental
Rules cannot be administered by state courts. Only
Article III federal courts can grant maritime
attachments.
In the case at hand, there was an issue pending
before the Court of Appeals whether Petitioner had
effectively attached the arbitration award in the hands
of the garnishee before payment. The garnishee and

23
the other respondents were parties to the appeal.
However, garnishee ST, by means of its stakeholder
suit, acted preemptively to remove the issue from the
jurisdiction of the Court of Appeals, and have it decided
elsewhere before the Court of Appeals had an
opportunity to consider it and render its judgment. On
the pretext that garnishee was in a dilemma as to who
was entitled to receive payment of the arbitration
award among the two competing claimants, ST filed a
competing stakeholder-interpleader in the English
High Court whereby it removed from appellate
consideration and adjudication the issue appealed and
asked that court to decide whether respondent Space or
Petitioner had a better right to the attached arbitration
award. But that issue had been already properly
submitted for decision to the Court of Appeals. The
Court in Swift & Co. Packers v. Compania Colombiana
Del Caribe, S. A., 339 U.S. 684, 694 (1950) noted that
“…[the admiralty court] has plenary power to decide,
and frequently does decide, conflicting claims to
property. Without such power its jurisdiction would
often be defeated.” ST unilaterally carved out of the
appeal and submitted to the High Court an issue that
was part and parcel of the appealed vacatur order.
With its Summary Order, the Court of Appeals
acquiesced to the divestiture of its jurisdiction, and
pronounced Petitioner’s appeal moot.
In administering Rule B, courts of the United States
presented with an application for maritime attachment
are required to decide a number of threshold issues.
These issues include: the presence of the res to be
attached in the district; its ownership; whether it is
tangible or intangible property, and whether it is

24
property of the Defendant. Rule B(1); Shipping Corp. of
India v. Jaldhi Overseas PTE Ltd., 585 F.3d 58, 66-67
(2d Cir. 2009); Scanscot Shipping Servs. GmbH v.
Metales Tracomex Ltda., 617 F.3d 679, 681 (2d Cir.
2010). The District Court, in vacating the attachment,
resolved one of these preliminary issues against
Petitioner holding that the intangible res attached - the
obligation to pay the arbitration award - was not in the
district. This is the ruling that Petitioner appealed.
Respondent ST’s stakeholder application, simplified,
was that Psara and Space were making inconsistent
demands for payment of the same amount and
requested the English court to resolve the issue. To
accomplish this, ST deposited in escrow in London an
amount equivalent to the arbitration award it owed,
thereby relocating by its own act the attached
intangible outside the district and bringing it under the
jurisdiction of the High Court, fracturing whatever
jurisdiction the Court of Appeals retained under
Republic National Bank. The way in which ST and
Space recast the issue for decision by the High Court
was that the property was not attachable because
Space claimed a superior right to that of Petitioner to
receive immediate payment. But this reasoning, which
was accepted by the Court of Appeals under various
rationales set out in its Summary Order, does violence
to the very concept of Rule B and the exclusiveness of
the jurisdiction of U.S. federal courts over its
administration. Henceforth, whenever a debt, such as
an obligation to pay hire, a subfreight owing to a
charterer, or an obligation to pay an arbitration award
are attached in the hands of a garnishee in the United
States, the garnishee, in collusion with the attaching
creditor’s debtor, can bypass the attachment by resort

25
to a foreign court or, perhaps, arbitration tribunal that
have jurisdiction over the garnishee and the plaintiff’s
debtor. The Court of Appeals judgment in effect
subordinates the exclusive jurisdiction of the admiralty
courts to that of foreign courts and tribunals thereby
rendering meaningless, or defeasible, the precedents of
the courts of the United States regarding the
exclusiveness of their powers to issue orders of
attachment. What Respondents did, and the Court of
Appeals allowed with its Summary Order, was to tear
out of the appeal the issue of the situs of the res by
transferring same to England, and there requested the
High Court to decide who had a better right to the res
– now “relocated” in the U.K. By Respondents’
reckoning, the U.K. stakeholder proceedings
represented a new suit that would lead to a judgment
settling all issues and render the pending appeal moot.
Cast in practical terms and summarized, Respondents’
approach was “When you suspect that the appeal might
go against you, game the system by starting an
interpleader somewhere else, and serve it up, indeed as
res judicata”5. The problem with this approach, and
what is erroneous about the Summary Order of the
Court of Appeals, is that the original suit which was
commenced in the District of Connecticut and was
under appeal in the Second Circuit, was - in
contemplation of law - regarded as pending and sub
judice when the stakeholder-interpleader proceedings
were taken out in the High Court. See, Gulf Ref. Co. v.
5

In an awkward passage in its own judgment, the English High
Court pronounced its own judgment on the issue as res judicata
over any claims Petitioner had in the prior proceedings pending in
the United States.

26
United States, 269 U.S. 125 (1925); Rodulfa v. United
States, 461 F.2d 1240, 1253 (DC App. 1972). In effect,
ST commenced a parallel competing proceeding in a
foreign jurisdiction, raising the same issues that were
still being litigated in the same case in the United
States on appeal. The Court of Appeals, by extending
comity to the English High Court decision, allowed
critical issues arising under its exclusive admiralty
jurisdiction to be decided by a foreign court.
V.

A
SUBSEQUENT
INTERPLEADER
CANNOT
DEFEAT
A
PRIOR
ATTACHMENT

The jurisdictional disfunction born out of parallel
competing proceedings that have the potential to give
rise to unseemly conflicts is well identified in U.S.
jurisprudence. See e.g., Farmers’ Loan & Trust Co. v.
Lake Street, 177 U.S. 51, 62 (1900); Kline v. Burke
Constr. Co., 260 U.S. 226 (1922). The manner in which
courts of the United States have resolved such
dilemmas when they occur in in rem or quasi in rem
cases is simple and straightforward:
The possession of the res vests the court which
has first acquired jurisdiction with the power to
hear and determine all controversies relating
thereto, and for the time being disables other
courts of coordinate jurisdiction from exercising
a like power.
Farmers’ Loan & Trust Co., 177 U.S. at 61; Kline, 260
U.S. at 231; Palmer v. Texas, 212 U.S. 118, 129 (1909).
Nor is this rule restricted in its application to
cases where property has been actually seized

27
under judicial process before a second suit is
instituted in another court, but it often applies
as well where suits are brought to enforce liens
against specific property, to marshal assets, to
administer trust or liquidate insolvent estates,
and in suits of a similar nature where, in the
progress of the litigation, the court may be
compelled to assume the possession and control
of the property to be affected.
Palmer v. Texas, 212 U.S. 129 (1909).
The rule is not only one of comity, to prevent
unseemly conflicts between courts whose
jurisdiction embraces the same subject and
persons….. It is a principle of right and law, and
therefore of necessity. It leaves nothing to
discretion or mere convenience.
Kline v. Burke Constr. Co., 260 U.S. 231 (1922).
In the context of the jurisdictional conflicts arising
from an interpleader challenging a prior attachment of
a res in another court, the Court has spoken
unequivocally in Sanders v. Armour Fertilizer Works,
292 U.S. 190 (1934). In that case, the Court held the
state court garnishment of insurance proceeds in the
hands of garnishee-insurance underwriters, could not
be subjected to divestiture and payment in favor of the
garnishee’s debtor who obtained judgment in federal
court interpleader proceedings that he filed after the
attachment. Sanders specifically holds that once a
garnishment, involving notice to the garnishee to
refrain from paying his creditor, has occurred, “the
attachment is a lien from the date of the levy.”

28
Sanders, 292 U.S. at 204. In reaching that conclusion,
the Sanders opinion relies on National Fire Insurance
Co. v. Chambers, 53 N.J. Eq. 468, 32 A. 663 (1895), in
which the Vice Chancellor held that “a pending
garnishment proceeding properly instituted… against
indebtedness due to a resident of New Jersey created
a lien thereon and gave the attaching creditor superior
equity” and hence applied the familiar principle “he
who is first in time is best in right.” Sanders, 292 U.S.
at 205-06.
The same result of the impossibility, as a matter of
law, to effectively pursue a subsequent interpleader
proceeding that would in effect divest the jurisdiction
of the district court in a maritime attachment case is
suggested by the opinion of the Court in Republic
National Bank, 506 U.S. at 86, n.4, quoting Justice
Story in the case of The “Bolina”, 3 F. Cas. 811, 813-814
(No. 1,608) (CC Mass. 1812):
Once a vessel is libelled, then she is considered
as in the custody of the law, and at the disposal
of the court, and monitions may be issued to
persons having the actual custody, to obey the
injunctions of the court…The district court of the
United States derives its jurisdiction, not from
any supposed possession of its officers, but from
the act and place of seizure for the forfeiture. . .
And when once it has acquired a regular
jurisdiction, I do not perceive how any
subsequent irregularity would avoid it. It may
render the ultimate decree ineffectual in certain
events, but the regular results of the
adjudication must remain.

29
The “Bolina”, 3 F. Cas. 811, 813-814 (No. 1,608) (CC
Mass. 1812); see also, Miller v. United States, 78 U.S.
268, 297 (1870) (“The service of an attachment...binds
the debt or the stock in the hands of the garnishee,
from the time of the service, and thenceforward it is
potentially in ‘gremio legis’”).
If Petitioner had not pursued an immediate appeal,
and if Republic National Bank did not provide that the
jurisdiction of the court over the res in a case of
admiralty attachment continues throughout the course
of the appeal, an interpleader judgment of a foreign
tribunal determining rights over the attached res might
have rendered the appeal moot. However, it is
respectfully submitted that if the attached res is in the
“custody of the law” or, to put it another way, subject to
the jurisdiction of courts of the United States, it is
legally impossible to render the pending appeal moot
by resort to an interpleader in a foreign court. A
contrary conclusion is irreconcilable with the Republic
National Bank principle of continuing appellate
jurisdiction, notwithstanding the removal of the res;
and with the very concept of the exclusiveness of the
jurisdiction of courts of the United States in quasi in
rem maritime attachment and garnishment.

30
VI.

THE USELESS JUDGMENT EXCEPTION
DOES NOT OPERATE TO RENDER A
JUDGMENT ON APPEAL MOOT, WHERE
THE JUDGMENT IS RENDERED USELESS
BY THE GARNISHEE’S OR THE DEBTOR’S
ACTION

In Republic National Bank, the Court identified a
set of circumstances which, notwithstanding the merits
of an appellant’s appeal in an in rem claim, would
make it impossible for the court to deliver the attached
res to the plaintiff or restore it to claimant. In such
circumstances, the judgment of the court would be
useless. See, Republic Nat’l Bank of Miami, 506 U.S.
at 85. The Court of Appeals, in its Summary Order,
did not use the words “useless judgment,” but,
nevertheless applied this exception to the rule of
continuing jurisdiction by reference to the legal
concepts that mark out a judgment as useless in this
context. It referred to the indebtedness attached as “a
res that no longer exists” and “it no longer exists as a
discrete res.” App. 4. The allusion to the cessation of
the existence of the res refers to the origins of the
useless judgment concept which, it appears, developed
in early admiralty practice in rem where the attached
res was a tangible object, such as a vessel. Loss of
jurisdiction by the court in an attachment or arrest
case, rendering any eventual judgment useless, was
illustrated in the Court’s opinion in Republic Nat’l
Bank of Miami, 506 U.S. at 87 by reference to an
arrested vessel that absconds, leaving the plaintiff
without a res from which to collect, or an abandonment
of the seizure by the plaintiff. Similarly, some Federal
Appellate Court judgments have applied the useless

31
judgment exception by reference to judicial action by
the same court that has ordered the seizure, whereby
the court’s jurisdiction is terminated and cannot be
reinstated. See e.g., Cmty. Bank of Lafourche v. Lori
Ann Vizier, Inc., 541 Fed. Appx. 506 (5th Cir. 2013);
Eurasia Intl. Ltd. v. Holman Shipping Inc., 411 F.3d
578 (5th Cir. 2005) (a sale at a Marshal’s sale); United
States v. 493,850.00 in U.S. Currency, 518 F.3d 159
(9th Cir. 2008) (a forfeiture sale). No case has been
found that renders the intangible res nonexistent as a
result of a garnishee’s payment of the garnished debt
in an escrow account subject to a foreign court’s
interpleader jurisdiction. If this rule was to be
adopted, as noted in the foregoing, garnishees could
easily defeat maritime garnishments, by starting a
foreign interpleader proceeding as a countermeasure.
Even if the attached intangible res had been
removed and the arbitration award was paid, as it was,
by ST to Space, the Court of Appeals would not have
lost jurisdiction over the case. The “useless judgment
rule” discussed is subject to an important qualification
viz. that this rule “…will not apply to any case where
the judgment will have any effect whatever.” Republic
Nat’l Bank, 506 U.S. at 85 (citing “Little Charles” 26 F.
Cas. 979, U.S. App. LEXIS 241 (No. 15,612) (CC Va.
1818)). In the “Little Charles,” Chief Justice Marshall,
sitting as a circuit judge, provided clear examples of
the noted qualification as follows:
But this reason will not apply to any case where
the judgment will have any effect whatever: if,
for example, the liability of the officer for
making the seizure, to damages, be dependent

32
on it, or if the parties have, by consent,
substituted other property to abide the fate of
the suit.
Id. at 982 (emphases added).
In the case at hand, Petitioner’s claim of
Respondent ST as a garnishee, is that it should have
refrained from payment of the award pending the
appeal of the vacatur order. Petitioner would argue
that ST is liable to Petitioner as a garnishee for failing
to withhold payment, in the same manner that a U.S.
Marshal that seizes a vessel, negligently fails to
maintain her in custody and may be held liable to the
attaching plaintiff for the loss of the attached res.
With regard to the useless judgment rule, the
Summary Order of the Court of Appeals is also in
conflict with the interpretation of the United States
Court of Appeals for the Eleventh Circuit in World
Wide Supply Ou v. Quail Cruises Ship Mgmt., 802 F.3d
1255, 1260 (11th Cir. 2015). In that case the attaching
plaintiff had argued:
...that, with a Rule B attachment, in personam
jurisdiction existed over the defendant—as
opposed to in rem jurisdiction over the res
itself—and therefore the fact that the property
had left the district did not moot the appeal
because the district court would again have
personal jurisdiction over Quail if the
attachment were reinstated.
Id. at 1259.

33
The Eleventh Circuit Court of Appeals agreed with
the attaching plaintiff holding:
It is apparent that a favorable judgment for
Plaintiff on this appeal would not be a “useless”
judgment for precisely the reason that Plaintiff
articulates. It would allow Plaintiff to maintain
the district court's personal jurisdiction over
Quail because Plaintiff would then arguably
have a valid Rule B attachment.
Id. at 1261.
In the case at hand, neither the Court of Appeals,
nor the District Court, nor a third party custodian of
the res, took action to remove the unpaid arbitration
award from the jurisdiction of the Court of Appeals,
thereby making it impossible for the court to deliver
the attached res to the plaintiff or restore it to
claimant. The action taken was that of ST as a
garnishee and Space as a defendant. There is no
decided case which has ruled an appeal moot under the
“useless judgment” exception, based on the garnishee’s
or the defendant’s removal of the res from the
jurisdiction, and pursuit of a proceeding in a foreign
court that might defeat the exclusive admiralty
attachment jurisdiction of the courts of the United
States.
CONCLUSION
For the foregoing the petition for a writ of certiorari
should be granted.

34
Respectfully Submitted
George A. Gaitas
Counsel of Record
GAITAS & CHALOS, P.C.
1908 N Memorial Way
Houston, Texas 77007
Tel:(281) 501-1800
Fax:(832) 962-8178
E-mail: gaitas@gkclaw.com
Counsel for Petitioner
Psara Energy, Limited
Dated: October 16, 2019

